Record Press Inc., 229 West 36th Street, New York, N.Y.
Tel: (212) 619-4949• Fax No. (212) 608-3141

STATE OF NEW YORK.

SS:

COUNTY OF NEW YORK

AFFIDAVIT OF SERVICE

Vittoria Virili being duly sworn. deposes and says that deponent is not party ta the action. and is aver 18 years of age.
That an the 2nd day of July

deponent served 3 copies of the within
PETITION FDR AWRIT OF CERTIORARI
upon the attorneys at the addresses below. and by the fallowing method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Christian Menefee
Harris County Attorney's Office
Congress. 15th Floor
Houston.Texas
(713)

I. Vittoria Virili. declare under penalty of perjury under the laws of the United States of America that the foregoing is true and
correct. executed an July 2.
pursuant ta Supreme Court Rule 28.S(c). All parties required ta be served. have been served.

Vittoria Virili

Sworn to me this

July 2.
Jasmine Williams
Notary Public. State of New Yark
Na.
Uualified in Uueens County
Expires September IB. 2023
C.

Case Name: Thomas Rice v. Ed Gonzalez

